Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 Medicare Payments for Orthotics

         Carrier Perspectives




                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 2000
                      OEI-02-99-00121
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York Regional Office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

Demetra Arapakos, Project Leader                     Stuart Wright, Program Specialist
Vincent Greiber                                      Scott Horning, Technical Support
                                                     Barbara Tedesco, Statistician




  To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
         Reports are also available on the World Wide Web at our home page address:

                              http://www.dhhs.gov/progorg/oei
                         EXECUTIVE SUMMARY


PURPOSE

          To review carrier policies and procedures and obtain their perspectives on Medicare
          reimbursement for orthotics.

BACKGROUND

          This study, a follow-up to a 1997 Office of Inspector General report entitled “Medicare
          Orthotics” (02-95-00380), was conducted to determine what changes, if any, have
          occurred with Medicare orthotics. We have also prepared a companion report entitled
          “Medicare Reimbursement for Orthotics” which examines the extent of inappropriate
          Medicare reimbursement for orthotics.

          Orthotics are rigid devices, often called braces, which are applied to the outside of the
          body as a means of support. They are categorized into one of three groups of devices:
          custom fitted, which require alterations to a prefabricated product; custom fabricated,
          which are made for a specific patient from his/ her individual measurements; and molded
          to patient model, which are created from a cast of the patient’s body part. Add ons, such
          as straps and linings, are billed separately. Suppliers of orthotics include certified
          orthotists, medical equipment companies, and physicians’ offices. Medicare claims for
          orthotics are processed and paid by one of four Durable Medical Equipment Regional
          Carriers (DMERCs).

          We combined two methods for this inspection. First, we collected and reviewed written
          policies for orthotics from each of the four DMERCs. We also conducted structured
          telephone interviews with staff from all four carriers.

FINDINGS

Carriers still lack policies for some groups of orthotics

          As noted in the 1997 OIG report on orthotics, while general coverage guidelines exist for
          all orthotic devices, specific guidelines are lacking for two groups - upper limb devices and
          hip devices. The devices in these two groups represent approximately two-thirds of all
          orthotic codes. Without specific policies, they lack distinctive medical and fitting
          requirements that may restrict payment for some devices.



                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        1                           OEI-02-99-00121
Carrier practices still focus on assuring the appropriateness of orthotic claims

          Carriers utilize different billing practices for orthotics claims. All four have payment
          screens and edits to isolate claims that may require additional scrutiny. Carriers also
          conduct post-payment reviews to monitor orthotic payments. Some conduct these
          reviews for specific codes or groups of devices, such as high dollar codes and devices
          from groups that lack specific policies. Carriers also use different procedures for dealing
          with problem suppliers, including conducting pre-payment reviews of and requesting
          additional information from problematic suppliers.

Carriers suggest strengthening the orthotics billing process with better
documentation and improved coding

          All carriers recognize the importance of adequate medical and supplier documentation to
          assure the appropriateness of orthotic claims. They suggest that physicians write more
          detailed orthotic prescriptions which address the patient’s specific needs and diagnosis;
          Carriers also recognize that coding for orthotics is problematic and offer suggestions to
          improve it. These include clarifying or eliminating “miscellaneous” codes and restricting
          certain codes to certain types of patients.

All four carriers recommend developing standards for orthotic suppliers

          All four carriers believe there should be standards for suppliers of orthotics, particularly
          because they say not all providers are qualified to supply orthotic devices. One argues
          that orthotic suppliers are neither licensed nor reviewed; another states that “it’s
          reasonable that certain types of custom fabricated orthotics are only made by qualified
          people.” Some carriers do caution, however, that credentialing suppliers may not solve all
          of the problems associated with unqualified individuals crafting orthotics, since
          credentialed orthotists might supervise an unreasonable number of orthotic fitters.

RECOMMENDATIONS

          We recommend that HCFA work with the DMERCs to strengthen the billing
          process for orthotics.

          In doing this, they may want to consider the practices and suggestions discussed in this
          report, such as developing additional screens and edit; requiring suppliers to submit a
          patient diagnosis as part of their claim; establishing more specific guidelines for
          “miscellaneous” codes; and continuing to educate physicians and suppliers on
          documentation and coding.


                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        2                           OEI-02-99-00121
          We also recommend that HCFA establish standards for suppliers of custom molded
          and custom fabricated orthotic devices.

          Suppliers of these devices must be skilled in fitting and crafting an orthosis to the
          individual measurements of the patient. We believe that establishing standards would help
          to ensure that suppliers providing custom molded and fabricated devices have such skills
          and that the devices they supply are appropriate.

Comments

          We received comments on the draft report from the Health Care Financing Administration.
          The HCFA generally concurs with our recommendations. In response to our
          recommendation that standards be required for suppliers of custom molded and fabricated
          devices, HCFA states that it is currently working on a proposed rule that will set general
          provider standards but not specific standards for custom orthotic suppliers. Given the
          specialized training and skills necessary for fitting and creating custom molded and
          fabricated devices, we continue to believe in the importance of additional standards for
          suppliers providing custom devices. The full comments are presented in Appendix A.




                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        3                         OEI-02-99-00121
                           TABLE OF CONTENTS


                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


          Carriers lack specific policies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Carriers practices focus on appropriateness . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Carriers suggest strengthening billing process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Carriers recommend standards for suppliers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


APPENDIX 


          A: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13





                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        4                                               OEI-02-99-00121
                                     INTRODUCTION

PURPOSE

          To review carrier policies and procedures and obtain their perspectives on Medicare
          reimbursement for orthotics.


BACKGROUND

          This study, a follow-up to a 1997 Office of Inspector General report entitled “Medicare
          Orthotics” (02-95-00380), was conducted to determine what changes, if any, have
          occurred with Medicare orthotics. In the 1997 report, we found that at least 19 percent of
          orthotics provided are medically unnecessary and that durable medical equipment
          companies more likely than orthotists to supply the questionable orthotics. We have also
          prepared a companion report entitled “Medicare Reimbursement for Orthotics” which
          examines the extent of inappropriate Medicare reimbursement for orthotics.

          Additionally, in September, 1999, the OIG released another follow-up report entitled
          “Medicare Payments for Orthotic Body Jackets” (04-97-00390). That study reported that
          while Medicare payments for orthotic body jackets had decreased, 42 percent of claims for
          these devices were upcoded. This upcoding was attributed in part to a lack of coding
          uniformity and standardization.

Orthotics

          Orthotics are rigid devices, often called braces, which are applied to the outside of the
          body as a means of support. An orthotic device differs from a prosthetic in that, rather
          than replacing a body part, it supports and/ or rehabilitates existing body parts. Orthotic
          devices are usually customized for an individual’s use and are not appropriate for anyone
          else. They have evolved in recent years to also include off the shelf devices that can serve
          functions similar to custom fitted components with little or no alteration necessary. New
          computer programs are also available which can design orthotic devices based on the
          patient’s individual measurements. Examples of orthotics include spinal body jackets, hip
          abductors, and knee braces.

          Individuals requiring orthotics range from the severely disabled, such as paraplegics or
          quadriplegics, to those who require an ankle brace for better gait or are recovering from a
          temporary back injury. An individual may need to wear the orthotic continuously for the
          duration of his or her lifetime, every day until the condition improves, or for some other

                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        5                          OEI-02-99-00121
          time frame as prescribed by a physician.

          There are several different ways in which an orthotic may be supplied. Typically, a
          physician prescribes the orthotic and refers the patient to an orthotist or other orthotic
          supplier. Orthotic devices may also be supplied by a clinic, hospital, or nursing home.
          Some orthosis prescriptions are very specific, while others are more general. The supplier
          uses these prescriptions, as well as their own examination of the patient, to determine the
          device needed. If a device needs to be made, the patient is likely to return to the supplier
          to have the device fitted. Ideally, the supplier also instructs the patient on how to put on,
          take off, and maintain the device, and provides follow-up care, although this is not
          required for payment.

Medicare Orthotics: Coverage and Payments

          Orthotic devices are primarily covered under Medicare Part B. As with all Medicare Part
          B services, covered orthotics must be reasonable and necessary for the diagnosis or
          treatment of an illness or injury. In order to meet Health Care Financing Administration
          (HCFA) coverage requirements, an orthotic must be a rigid or semi-rigid device used
          either to support a weak or deformed member or to restrict or eliminate motion in a
          diseased or injured part of the body. Orthotic claims must have a prescription and/ or a
          certificate of medical necessity signed by a physician.

          Orthotic devices are classified into one of 465 different codes (L0100 through L4380) in
          the Common Procedure Coding system HCFA uses for billing. These L-Code listings
          give a brief description of the device. These listings also define the device as one of three
          types:

          C	        Custom fitted, which require substantial adjustments to a prefabricated item by a
                    specially trained professional to meet the needs and/or unique shape of an
                    individual patient;

          C	        Custom fabricated, which are made for a specific patient from his/her
                    individualized measurements and/ or pattern; or

          C	        Molded to patient model, whereby a cast is made of the specified body part and is
                    used to create an orthotic device.

          Some orthotics may also have additional components which are billed separately. For
          example, an ankle-foot orthosis may require special strap, joints, or linings that have their
          own codes and are therefore billed in addition to the basic device.




                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        6                           OEI-02-99-00121
Durable Medical Equipment Regional Carriers

          Orthotic claims are processed and paid for by one of four regional carriers called
          DMERCs (Durable Medical Equipment Regional Carriers). In October 1993, HCFA
          began processing all Medicare Part B claims for medical equipment, supplies, orthotics,
          and prosthetics through these carriers. Their establishment was intended to help eliminate
          the inconsistency of coverage and reimbursement for medical equipment that had been
          problematic in the past. The DMERCs are divided into regions A, B, C, and D and cover
          the entire country. The DMERCs ensure that coverage requirements are met before
          approving payment and provide educational services to suppliers.

Orthotic Suppliers

          Any supplier with a HCFA provider number can provide and bill for orthotics, and no

          verification is done on their ability to provide orthotics. Suppliers need no financial

          investment and experience, and little verification is done of their applications. Suppliers of

          orthotic devices include orthotists, medical equipment companies, pharmacies, and

          doctors’ offices. Some general medical equipment suppliers may have an orthotist on

          staff. Suppliers may manufacture the devices in their own workshops or obtain them from

          other companies.


          Of all these supplier types, only orthotists have professional certification to provide

          specialist services. An orthotist provides care to patients with disabling conditions of the

          musculoskeletal structure of the body. At the request of, and in conjunction with

          physicians, the orthotist assists in formulating prescriptions for orthoses and examines and

          evaluates the patients’ orthotic needs in relation to their functional loss. More specifically,

          the orthotist:


          <         formulates the device’s design and selects materials and components; 

          <         makes all necessary casts, measurements, model modifications, and layouts; 

          <         performs fittings, including static and dynamic alignments; 

          <         evaluates the orthosis on the patient; 

          <         instructs the patient in its use; and 

          <         maintains patient records.


          As of now, no State licenses orthotists, although some are considering licensing legislation

          for the future. However, there are two organizations which do offer orthotist

          certification: the American Board for Certification in Orthotics and Prosthetics, Inc.,

          (ABC), and the Board of Certification (BOC). The ABC sets standards of competency

          and grants a Certified Orthotist (CO) credential. To qualify for ABC certification on

          orthotics, an individual must have a college degree, have completed a postgraduate

          orthotist certificate program from an accredited institution, and have at least one year of



                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        7                            OEI-02-99-00121
          patient management experience. The candidate must also pass two written exams and a
          three-day clinical exam that tests the ability to design, fabricate, and fit a variety of
          orthoses. Certified practitioners must meet continuing education requirements every five
          years to renew their credentials. Currently, there are approximately 3,000 ABC certified
          orthotists in the United States.

          The BOC also certifies orthotists and there are currently more than 900 BOC certified
          orthotists. In order to sit for the BOC certification exam, which includes written and
          practical components, the applicant is required to have one or more of the following: a
          bachelor’s degree with a major in orthotics or prosthetics; an associate degree in a related
          field, or; one or more years of orthotics/ prosthetics education, training and/ or supervised
          work experience, including intensive study. In addition, all prospective BOC orthotists
          must document that they have had a minimum of two years (3,900 hours) of experience
          providing direct patient services.


METHODOLOGY

          We combined two methods for this inspection. First, we collected and reviewed written
          policies for orthotics from each of the four DMERCS. We also conducted structured
          telephone interviews with staff from all four carriers.

Carrier Policy Review

          We collected the most recent policies on orthotics from each of the regional carriers.

          We then reviewed these policies, specifically looking at device definitions, indications,

          coverage and payment rules, coding guidelines, documentation requirements, and medical

          criteria. We also compared the policies to look for any similarities and differences

          between them.


Interviews

          We conducted telephone interviews with staff from each of the four DMERCs - three with
          the medical director and one with the medical affairs coordinator. During our interviews,
          we discussed current practices and changes in policies and procedures relating to
          orthotics, suggestions for improving these policies and procedures, and the qualifications
          of orthotic suppliers.

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiciency.




                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        8                           OEI-02-99-00121
                                               FINDINGS

Carriers still lack specific policies for some groups of orthotics

          As noted in the 1997 OIG report on orthotics, while general coverage guidelines exist for
          all orthotic devices, specific guidelines are lacking for two groups - upper limb devices and
          hip devices. The devices in these two groups represent approximately two-thirds of all
          orthotic codes. Without specific policies, they lack distinctive medical and fitting
          requirements that may restrict payment for some devices. None of the four carriers have
          made changes to their orthotics policies since 1997. However, one medical director
          reports that the DMERCs are discussing developing policies for upper limb devices; no
          final changes have yet been made.


Carriers’ practices still focus on assuring the appropriateness of
orthotic claims

          Screens and edits. Payment screens and edits are installed in all the DMERCs’
          automated systems to isolate claims that may require additional scrutiny. These screens
          and edits are used to identify multiple billings for the same device, multiple suppliers for
          one beneficiary or one code, and high dollar amounts. For example, one carrier has edits
          for duplicate equipment and place of service, certain diagnoses, and specific suppliers. At
          another carrier, the electronic billing system routinely selects ankle positioning splint
          claims for review. Of the four carriers, only one has edits that can be changed based on
          the specifications of different codes. One carrier has no edit for medical necessity, while
          another has no edits for frequent billings.

          While two carriers believe that existing screens and edits are sufficient, the remaining two
          think additional screens and edits would be helpful. Suggestions for improvement include:
          screens for new codes; a one year edit for duplicate devices supplied within the same year;
          edits based on supplier type; and customized screens for specific devices.

          Post-payment reviews. All four DMERCs utilize a variety of post-payment reviews to
          monitor payments for orthotics. For example, one conducts post-payment reviews on
          claims for orthotics that are not governed by specific policies, such as upper limb devices,
          since these are considered to be more vulnerable to fraud. Some carriers conduct reviews
          for specific codes or groups of codes. One conducts focused medical reviews of high
          dollar codes, while another reviews codes that are increasing in utilization. Two carriers
          request random samples of beneficiary records or products to look at medical necessity,
          coding, and co-payments.

                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        9                          OEI-02-99-00121
          Supplier reviews. Carriers also use different procedures for dealing with problem
          suppliers. Two in particular conduct pre-payment reviews of claims submitted by suppliers
          identified as problematic. At one carrier, suppliers who have miscoded claims must
          correct their coding errors and send information on items they are actually providing
          before being reimbursed, whereas suppliers of devices with questionable medical necessity
          are asked to send additional information from the patient’s medical record. In another
          region, suppliers who are under review are not allowed to file their claim electronically but
          instead must send a hard copy along with other supporting documentation.


Carriers suggest strengthening the orthotics billing process with
better documentation and improved coding

          All carriers recognize the importance of adequate medical and supplier documentation to
          assure the appropriateness of orthotic claims. While medical records are not routinely
          requested and reviewed by carriers, they do suggest that physicians write more detailed
          orthotic prescriptions which address the patient’s specific needs and diagnosis. One
          medical director points out that while suppliers of other equipment must submit a patient
          diagnosis with their claim, orthotic suppliers are not governed by the same requirement.
          He believes that mandatory diagnosis codes would not only ease automated claim
          processing but would also allow carriers to check against physician records and “tell the
          world what conditions we will pay for.” In fact, at one carrier ankle positioning splint
          claims are only paid when accompanied by an appropriate diagnosis. With regard to
          suppliers, one medical director thinks that claims for custom fabricated and molded
          devices submitted without proof of touching the patient should be denied; he says that, “I
          deny claims when (the supplier) doesn’t touch the part of the body the orthosis is for.”

          Carriers recognize that coding for orthotics is problematic and offer suggestions to
          improve it. First, devices that suppliers consider difficult to categorize according to
          established guidelines can be coded as ‘miscellaneous.’ One medical director suggests that
          these codes make automated processing of codes difficult, and another director suggests
          eliminating miscellaneous codes altogether, including codes for “miscellaneous” suppliers
          such as hospital interns. Also, medical directors believe certain codes should be restricted.
          For example, one says that custom made devices should be reserved for athletes and other
          extremely active people as well as older persons whose shapes are constantly changing.
          Another suggests that certain codes be limited to patients unable to undergo surgery. One
          medical director notes that the amount of clinical literature outlining what is an
          appropriate and legitimate orthosis is limited and likens the current coding process to
          “asking for a calculator and getting a computer.”




                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        10                         OEI-02-99-00121
All four carriers recommend developing standards for orthotic
suppliers

          All four carriers believe there should be standards for suppliers of orthotics, particularly
          because they say not all providers are qualified to supply orthotic devices. One argues
          that orthotic suppliers are neither licensed nor reviewed; he adds that orthotics is the only
          unregulated healthcare industry. The medical director of one carrier states that “it’s
          reasonable that certain types of custom fabricated orthotics are only made by qualified
          people”; similarly, another reports that “in order to provide good quality items, it is helpful
          to have someone who is knowledgeable” supplying the device. Finally, one medical
          director makes the point that non-trained suppliers now have access to inexpensive off-
          the-shelf devices and are less critical about selecting their patients, therefore resulting in
          over-utilization of these devices.

          Some carriers do caution, however, that credentialing suppliers may not solve all of the
          problems associated with unqualified individuals crafting orthotics. One medical director
          says, “hiring a certified orthotist to sit on the staff and sign off on all DME that is supplied
          be the DME supply store chain is no solution.” Another believes that credentialing would
          create problems with orthotists on staff who would “supervise” an unreasonable number
          of orthotic fitters.

          Carriers also believe that more instruction and education for orthotic suppliers and
          physicians would solve problems with miscoding and medical necessity. They believe
          there is a general lack of understanding on orthotic policies. One carrier suggests
          publishing an instruction booklet for suppliers with coding guidelines to assist them with
          accurately coding their devices. Another says that physicians should become more
          knowledgeable of when an orthosis should be prescribed for their patient.




                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        11                            OEI-02-99-00121
                            RECOMMENDATIONS

We recommend that HCFA work with the DMERCs to strengthen the billing process for
orthotics.

          In doing this, they may want to consider the practices and suggestions discussed in this
          report, such as developing additional screens and edits; requiring suppliers to submit a
          patient diagnosis as part of their claim; establishing more specific guidelines for
          “miscellaneous” codes; and continuing to educate physicians and suppliers on
          documentation and coding.

We also recommend that HCFA establish standards for suppliers of custom molded and
custom fabricated orthotic devices.

          Suppliers of these devices must be skilled in fitting and crafting an orthosis to the
          individual measurements of the patient. We believe that establishing standards would help
          to ensure that suppliers providing custom molded and fabricated devices have such skills
          and that the devices they supply are appropriate.

Comments

          We received comments on the draft report from the Health Care Financing Administration.
          The HCFA generally concurs with our recommendations. In response to our
          recommendation that standards be required for suppliers of custom molded and fabricated
          devices, HCFA states that it is currently working on a proposed rule that will set general
          provider standards but not specific standards for custom orthotic suppliers. Given the
          specialized training and skills necessary for fitting and creating custom molded and
          fabricated devices, we continue to believe in the importance of additional standards for
          suppliers providing custom devices. The full comments are presented in Appendix A.




                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        12                        OEI-02-99-00121
                                                                            APPENDIX A


In this appendix, we present in full the comments from the Health Care Financing Administration.




                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        13                    OEI-02-99-00121
                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        14       OEI-02-99-00121
                                                        )))))))))))
Medicare Payments for Orthotics- Carrier Perspectives        15       OEI-02-99-00121
